       We will post this advisory on our website (www.doioig.gov/recovery) and Recovery.gov.
Information contained in this advisory may also be included in our semi-annual reports to
Congress. Please contact me if you have any questions.

Background

        The Recovery Act stipulates that the Secretary of the Interior shall, to the extent
practicable, partner with groups that serve young adults, an edict in keeping with the
Department’s efforts to engage, educate, and develop future generations with an ethic for
conservation and resource stewardship.2 Furthermore, the Recovery Act encourages increased
competition and requires a higher level of transparency than previously encountered in the
federal sector.

        In late August, we identified four notices on Grants.gov totaling more than $325,000
intended to award cooperative agreements for trail maintenance projects at Mount Rainier
National Park without full and open competition. The agreements were with four separate youth
conservation groups: Earthcorps, Student Conservation Association, Northwest Youth Corps,
and Washington Conservation Corps. We visited the Park in early September and observed the
construction of a portion of the Glacier Basin Trail and a footbridge along the Park’s renowned
Wonderland Trail. We interviewed park staff, youth volunteers and program officials from each
of the youth organizations, and reviewed the Park’s project files on each agreement.

Contributing to the Secretary’s Youth Initiative

       The primary intention of cooperative agreements is to serve a public purpose rather than
acquiring property or services that directly benefit the government. In a message to Department
employees dated May 4, 2009, the Secretary directed that Recovery Act projects “where
possible, provide opportunities for the employment of young adults and engage their interest in
environmental stewardship.” NPS has long offered youth service opportunities through
partnerships,3 and many parks in the system opted to take advantage of Recovery Act funds to
continue these efforts.

       Based on our observations and interviews at Mount Rainier, we are confident the Park’s
cooperative agreements serve a public purpose and further Departmental efforts to engage youth
and promote environmental stewardship in the State of Washington. During our visit, we had the
opportunity to meet with and learn about the four youth environmental conservation groups
working at the Park. The youth participants and program staff we interviewed said that they
enjoyed the work and exhibited a sincere dedication to conservation. Many sought to pursue
environmental careers, including opportunities for more permanent work with the NPS. We also
                                                               
   2
       DH-57 Creating a 21st Century Youth Conservation Corps
   3
       The Student Conservation Association (SCA), for example, is a nonprofit youth environmental conservation
        organization that has partnered with NPS since its inception in 1957 and is used predominantly throughout
        the Park System. The NPS entered into its most recent cooperative agreement with the SCA in July 2009.
        This master agreement sets a framework for advancing project goals through NPS and the Conservation 
        Corps Program, under which individual NPS National Parks, Monuments, and Recreation Areas may submit
        Individual Task Agreements outlining project details. The SCA partnership at Mount Rainier was one of
        these Individual Task Agreements.

                                                                                                                    2
    
spoke to Park staff members who attributed their career choice to participation in one of these
groups when they were younger.

Prior Audit Concerns

       Previous OIG reports highlighted several issues the Department encountered while
managing partnerships with nonfederal entities. A 2007 audit report of 119 cooperative
agreements throughout the Department concluded that “Interior lacked a fundamental
understanding as to how and for what purpose cooperative agreements should be awarded.”4
Auditors tested the following four decision points for the use of cooperative agreements:

                Was a cooperative agreement the appropriate legal instrument for the transaction?
                Was the award issued with clear legal authority?
                Was there substantial involvement?
                Was competition solicited?

        The four cooperative agreements we reviewed at Mount Rainier were the appropriate
legal instruments given the trails maintenance and repair projects they encompassed. Park staff
and partner organizations collaborated on logistics, scheduling, and execution. Both parties
supplied materials and labor to the efforts, and each program incorporated, to varying degrees,
learning opportunities related to resource management and environmental conservation.

       The agreements were also awarded with clear legal authority through two chief laws: the
National Trails System Act, which allows cooperative agreements to develop and maintain trails,
and the Public Land Corps Act, which allows the Secretary of the Interior to enter into contracts
or cooperative agreements with qualified youth or corps for conservation projects.

        The Park’s “substantial involvement” in each project, the cornerstone of cooperative
agreements, was adequately summarized in the relevant documentation related to each
partnership. We also witnessed youth participants, crew leads, and NPS staff working side by
side to complete the projects.

         The 2007 report also noted that most of the agreements reviewed were issued without
soliciting for competition and therefore did not ensure best value was received by the
government. Consistent with this finding, the four agreements at Mount Rainier were single
source awards but were justified in order to “give the experience to a wide variety of corps
member students.” During this review, we did not analyze whether these agreements provided
best value, though an NPS official told us that not all of the youth groups were equal in the value
they provided.




                                                               
   4
       W-IN-MOA-0086-2004

                                                                                                     3
    
Monitoring Cost Matching Requirements

        An evaluation of the Department’s Challenge Cost Share Program issued in 2009 found
that bureaus were not “requiring, enforcing, or monitoring partners’ matching contributions…
[resulting in] bureaus failing to report, or misreporting nonfederal matching contributions to
Congress, and failing to demonstrate transparency of the availability and results of the Program
to the public.”5

        The Public Land Corps Act contains a 25 percent cost-matching requirement for
nonfederal partners. According to the Park’s contracting officer, cost-matching information is
contained on the cost estimates and/or the invoices provided by partner organizations. We found
that the cost-matching requirements for the cooperative agreements at Mount Rainier were not
adequately monitored, primarily the result of inadequate staffing and insufficient financial
assistance training of those responsible for overseeing the agreements at the Park level.
Inadequate monitoring of partner cost-sharing during the agreement term severely limits the
Park’s ability to enforce and accurately report partner-matching contributions.

Recommendation

           We recommend that the Director, National Park Service:

           1.	 Provide specific training to Park-level staff members, who have oversight
               responsibilities for cooperative agreements, to ensure adequate and accurate
               assessment of partner cost-sharing.

cc: 	      Deputy Secretary, Department of the Interior
           Senior Advisor to the Secretary for Economic Recovery and Stimulus
           Assistant Secretary – Policy, Management, and Budget
           Director, Office of Financial Management
           Director, Office of Acquisition and Property Management
           Contracting Officer, Mount Rainier National Park
           Department GAO/ OIG Audit Liaison
           Audit Liaison, Office of the Secretary
           Audit Liaison, National Park Service
           Recovery Coordinator, National Park Service




                                                                
    5
        WR-EV-MOA-0004-2008

                                                                                                   4
     
          



                                                     


                       Report Fraud, Waste, and 
  
                          
                           Mismanagement


                                                       
                                 Fraud, waste, and mismanagement in
                             government concerns  everyone: Office of
                                 Inspector General staff, Departmental
                         employees, and the general public. We actively
                         solicit allegations
                                                of any inefficient and wasteful
                                  practices, fraud, and abuse related to
                              
                           Departmental       or Insular Area programs and
                          operations. You can report allegations to  us in
                                               several  ways.
                                                     
                                                         
                                                     
                                                     
                  By Mail:  	          U.S. Department of the Interior  
                                       Office of Inspector General  
                                       Mail Stop 4428 MIB  
                                       1849 C  Street, NW
                                       Washington, D.C. 20240  
                   
                  By Phone :  	        24‐Hour Toll Free	                800‐ 424‐5081   
                                       Washington Metro Area             703‐ 487‐5435   
                   
                           	  
                  By Fax:	             703‐487‐5402  
                   
                  By Internet:		       www. doioig.gov/hotline
               




                                                                                             
